U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 25, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States v. Sineneng-Smith, No. 19-67
Dear Mr. Harris:
Certiorari was granted in the above-captioned matter on October 4, 2019, and petitioner's
brief on the merits is currently due on November 18, 2019.
Because of scheduling difficulties and the press of other cases, the parties respectfully
request, under Rule 30.4 of the Rules of this Court, that the time within which to file petitioner's
brief (and the joint appendix) be extended to and including December 2, 2019, and that the time
within which to file respondent's brief be extended a corresponding amount of time, to and
including January 15, 2020. If those extensions are granted, the reply brief would be due on
February 14, 2020.
Counsel for petitioner and respondent have agreed on the schedule proposed above.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0067
USA
EVELYN SINENENG- SMITH

DANIEL F. COOK
P0 BOX 26
BODEGA BAY, CA 94923
415-730-3075
MARK C. FLEMING
WILMER CUTLER PICKERING HALE & DORR
LLP
60 STATE STREET
BOSTON, MA 02109
617-526-6909
MARKFLEMING@WILMERHALE.COM

